                                                              O FFICE OF A UDIT S ERVICES , R EGION IV
                                                               61 F ORSYTH S TREET, SW, S UITE 3T41
                                                                                A TLANTA , GA 30303
April 30, 2012

Report Number: A-04-10-06131

Mr. Jim Wilson
Chief Executive Officer
Lakewood Ranch Medical Center
8330 Lakewood Ranch Boulevard
Bradenton, FL 34202

Dear Mr. Wilson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Outpatient Brachytherapy Medicare Payments to
Lakewood Ranch Medical Center. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Andrew Funtal, Audit Manager, at (404) 562-7762 or through email at
Andrew.Funtal@oig.hhs.gov. Please refer to report number A-04-10-06131 in all
correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Jim Wilson


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 355
Kansas City, MO 64106
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




      REVIEW OF OUTPATIENT
BRACHYTHERAPY MEDICARE PAYMENTS
       TO LAKEWOOD RANCH
         MEDICAL CENTER




                         Daniel R. Levinson
                          Inspector General

                             April 2012
                           A-04-10-06131
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over, people with disabilities, and people with end-stage renal
disease. The Centers for Medicare & Medicaid Services administers the program.

Brachytherapy is an advanced cancer treatment in which radioactive seeds, or sources, are
permanently or temporarily placed in or near the tumor itself, giving a radiation dose to the
tumor while reducing radiation exposure in the surrounding healthy tissues.

Lakewood Ranch Medical Center (Lakewood) is a 120-bed acute care hospital located in
Bradenton, Florida. Lakewood is a member of the Manatee Healthcare System and is a
subsidiary of Universal Health Services, Inc., King of Prussia, Pennsylvania. In calendar years
2008 and 2009, Lakewood billed Medicare for 108 brachytherapy treatments: 65 for Yttrium-90
microspheres (SIR-Spheres), 30 for catheter insertion, 12 for Iodine-125 seeds, and 1 for
Technetium-99m liquid source.

OBJECTIVE

Our objective was to determine whether Lakewood met applicable Medicare payment
requirements for brachytherapy claims.

SUMMARY OF FINDINGS

Lakewood met applicable Medicare payment requirements for all 43 claims for catheter
insertion, Iodine-125 seeds, and a Technetium-99m source. However, none of the 65
SIR-Sphere claims met applicable Medicare payment requirements, resulting in overpayments of
$761,534. These 65 claims were in error for the following reasons:

   •   Lakewood used a single vial of SIR-Spheres to treat 2 separate patients on 43 claims,
       which resulted in overpayments of $483,137.

   •   Lakewood lacked required Medicare documentation showing proper handling and
       disposal of unused brachytherapy sources on 19 claims, which resulted in overpayments
       of $223,202.

   •   Lakewood billed for undelivered brachytherapy on two claims, which resulted in
       overpayments of $38,138.

   •   Lakewood billed for an unsupported service on one claim, which resulted in an
       overpayment of $17,057.




                                                 i
Lakewood improperly billed these claims because it did not have policies and procedures to
account for partial vial usage or handling, tracking, or proper disposition of the unused portion of
a vial, and it did not follow its procedures for ordering brachytherapy sources.

RECOMMENDATIONS

We recommend that Lakewood:

   •   refund to the Medicare program $761,534 in overpayments for improper brachytherapy
       claims;

   •   develop and implement procedures to ensure that all brachytherapy sources are billed
       correctly; and

   •   develop and implement procedures for handling, tracking, and disposing of all
       radioactive brachytherapy sources, with special emphasis on Yttrium-90 disposal
       requirements.

LAKEWOOD COMMENTS

In its comments on our draft report, Lakewood did not fully agree with our recommendations.
Because Lakewood could find no specific prohibition against billing multiple times for a single
vial of Yttrium-90 SIR-Spheres, it will continue to do so. In addition, Lakewood stated that the
physical inventory requirements in the Florida Administrative Codes (F.A.C.) governing the use
and handling of Yttrium-90 and Medicare billing requirements are not applicable to SIR-Spheres
because they are not traditional brachytherapy sources. After removing personal patient
information, we included Lakewood’s comments as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that our findings and recommendations are valid. Because Lakewood administered
one vial of SIR-Spheres to two different patients and billed Medicare (or other insurance) for two
vials, Medicare paid twice for the same vial. In addition, Lakewood has not adhered to the
F.A.C.s regarding decay in storage, which they cited in their response. Therefore, Lakewood did
not meet the Medicare requirements for payment of unused microspheres.




                                                 ii
                                                    TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION..............................................................................................................1

      BACKGROUND ..........................................................................................................1
        Brachytherapy ..........................................................................................................1
        Radioactive Seeds ....................................................................................................1
        Yttrium-90 Microspheres .........................................................................................1
        Yttrium-90 Usage and Disposal ...............................................................................2
        Medicare Payments for Brachytherapy Sources ......................................................2
        Lakewood Ranch Medical Center ............................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2
        Objective ..................................................................................................................2
        Scope ........................................................................................................................2
        Methodology ............................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................3

      FEDERAL AND STATE REQUIREMENTS .............................................................4
        Medicare Requirements for Cost Reimbursement Payments ..................................4
        Nuclear Regulatory Commission Requirements ......................................................5
        Florida Administrative Code....................................................................................5

      MEDICARE OVERPAYMENTS ................................................................................5
        Overpayments Resulting From Billing Multiple Patients Treated
          From a Single Vial ...............................................................................................5
        Lack of Accountability for the Use of SIR-Spheres ................................................6
        Billing for Canceled Procedures and Unsupported Services ...................................7

      CAUSES OF MEDICARE OVERPAYMENTS..........................................................7
        Billing for Multiple Patients Treated From a Single Vial........................................7
        Lack of Accountability for the Use of SIR-Spheres and Canceled Procedures .......7
        Billing for Canceled Procedures and Unsupported Services ...................................7

      TOTAL MEDICARE OVERPAYMENTS ..................................................................8

      RECOMMENDATIONS ..............................................................................................8

      LAKEWOOD COMMENTS AND OFFICE OF INSPECTOR GENERAL
       RESPONSE ...............................................................................................................8
        Recommendation 1 (Lakewood Comments) ...........................................................8
        Recommendation 1 (Office of Inspector General Response) ..................................9
        Recommendation 2 (Lakewood Comments) .........................................................10

                                                                       iii
    Recommendation 2 (Office of Inspector General Response) ................................10
    Recommendation 3 (Lakewood Comments) .........................................................10
    Recommendation 3 (Office of Inspector General Response) ................................11

APPENDIX

  LAKEWOOD RANCH MEDICAL CENTER COMMENTS




                                                  iv
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over, people with disabilities, and people with end-stage
renal disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Brachytherapy

Brachytherapy is a radiation therapy used to treat cancer. The American Medical Association
defines “clinical brachytherapy” as “the use of either natural or man-made radioelements applied
into or around a treatment field of interest. The supervision of radioelements and dose
interpretation are performed solely by the therapeutic radiologist.” The American Brachytherapy
Society defines “permanent” brachytherapy as a treatment in which the seeds, or “sources,”
remain inside the body. Two types of permanent sources are radioactive seeds and Yttrium-90
microspheres.

Radioactive Seeds

Prostate seed implantation is a type of brachytherapy in which radioactive metallic seeds smaller
than a grain of rice are permanently placed inside the prostate gland via an injection. This
therapy delivers a dose of radiation directly to the tumor. The number of seeds needed for
treatment is determined by the size of the prostate gland and the dose of radiation prescribed.
Typically, between 70 and 150 Iodine-125 or Palladium-103 seeds are placed during a single
procedure.

Yttrium-90 Microspheres

Two Yttrium-90 products are approved by the Food and Drug Administration and commercially
available: Theraspheres, manufactured by MDS Nordion in Canada, and SIR-Spheres,
manufactured by Sirtex Medical Limited in Australia. Yttrium-90 microspheres are
brachytherapy sources used to treat cancer that has spread to the liver. Lakewood Ranch
Medical Center (Lakewood) uses only Sirtex Yttrium-90 microspheres (SIR-Spheres). The
therapeutic radiologist calculates the dose, and the oncologist delivers the microspheres using a
catheter. Each therapeutic treatment order 1 (vial) of SIR-Spheres is intended for a single patient.




1
  A standard therapeutic treatment order from the manufacturer is three GigaBecquels of Yttrium-90 microspheres in
a vial of 5 cubic centimeters (cc) of water solution.


                                                        1
Yttrium-90 Usage

Yttrium-90 microspheres have a physical half-life of 64.1 hours, which means that after
approximately 64 hours, they lose 50 percent of their potency. 2 Therefore, timing of
implantation into the patient is crucial for positive treatment outcomes.

Medicare Payments for Brachytherapy Sources

The brachytherapy catheter is reimbursed using Healthcare Common Procedure Coding System
(HCPCS) code 55875, and the seeds and microspheres are reimbursed using HCPCS codes
C1716 through C1719, C2616, and C2632 through C2699. Section 1833(t)(16)(C) of the Act
states that the payment basis for the device or therapeutic radiopharmaceutical under this
subsection must be equal to the hospital’s charges for each device or radiopharmaceutical
furnished, adjusted to cost. 3 The formula for the calculation of this cost is the extension of the
hospital’s cost-to-charge ratios times the Medicare charges for the sources.

Lakewood Ranch Medical Center

Lakewood is a 120-bed acute care hospital located in Bradenton, Florida. Lakewood is a
member of the Manatee Healthcare System and a subsidiary of Universal Health Services, Inc.
In calendar years (CY) 2008 and 2009, Lakewood billed Medicare for 108 brachytherapy
treatments: 65 for SIR-Spheres, 30 for catheter insertion, 12 for Iodine-125 seeds, and 1 for
Technetium-99m liquid source.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Lakewood met applicable Medicare payment
requirements for brachytherapy claims.

Scope

We reviewed all 108 Medicare outpatient brachytherapy paid claims, totaling $1,655,080, for
Lakewood’s cost reporting periods from January 1, 2008, through December 31, 2009
(CYs 2008 and 2009).

We limited our review of Lakewood’s internal controls to those that were applicable to the
selected payments because our objective did not require an understanding of all internal controls
over the submission of claims. Our review allowed us to establish reasonable assurance of the


2
 PerkinElmer, Inc., “Yttrium-90 Handling Precautions.” Available online at
http://www.perkinelmer.com/CMSResources/Images/44-74001tch_yttrium90.pdf. Accessed on June 28, 2011.
3
 The Medicare Improvements for Patients and Providers Act of 2008, Pub. L. No. 110-275, § 142 amended
§ 1833(t)(16)(C) of the Act to extend this payment methodology through December 31, 2009.

                                                      2
authenticity and accuracy of the data obtained from the National Claims History file, but we did
not assess the completeness of the file.

We performed fieldwork from September through October 2010 at Lakewood in Bradenton,
Florida.

Methodology

To accomplish our objective, we:

      •    reviewed applicable Federal laws, regulations, and guidance;

      •    reviewed Florida State Administrative Codes regulating control of radioactive materials;

      •    used CMS’s National Claims History file to identify paid outpatient Medicare claims
           containing brachytherapy HCPCS codes;

      •    selected all 108 outpatient Medicare claims containing brachytherapy HCPCS codes for
           Lakewood for CYs 2008 and 2009;

      •    reviewed Medicare claim forms, patient medical records, and Lakewood’s additional
           supporting documentation for the identified claims;

      •    reviewed required logs, inventories, and additional documentation supporting that
           Lakewood met all requirements for the proper handling, tracking, and disposal of
           radioactive sources required for Medicare payment for brachytherapy sources; and

      •    reviewed purchase orders, invoices, proof of payment, and medical records to determine
           whether any brachytherapy sources billed to Medicare were either unused or used in
           treatment of multiple patients.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

Lakewood met applicable Medicare payment requirements for all 43 claims for catheter
insertion, Iodine-125 seeds, and a Technetium-99m source. However, none of the 65
SIR-Sphere claims met applicable Medicare payment requirements, resulting in overpayments of
$761,534. 4 These 65 claims were in error for the following reasons:


 4
     In each instance, we allowed payments proportionate to the amount of sources actually implanted in the patients.

                                                           3
   •   Lakewood used a single vial of SIR-Spheres to treat 2 separate patients on 43 claims,
       which resulted in overpayments of $483,137.

   •   Lakewood lacked required Medicare documentation showing proper handling and
       disposal of unused brachytherapy sources on 19 claims, which resulted in overpayments
       of $223,202.

   •   Lakewood billed for undelivered brachytherapy on two claims, which resulted in
       overpayments of $38,138.

   •   Lakewood billed for an unsupported service on one claim, which resulted in an
       overpayment of $17,057.

Lakewood improperly billed these claims because it did not have policies and procedures to
account for partial vial usage or handling, tracking, or proper disposition of the unused portion of
a vial, and it did not follow its procedures for ordering brachytherapy sources.

FEDERAL AND STATE REQUIREMENTS

Medicare Requirements for Cost Reimbursement Payments

Section 1861(v)(1)(A) of the Act defines “reasonable cost” as “the cost actually incurred,
excluding therefrom any part of incurred cost found to be unnecessary in the efficient delivery of
needed health services ....” Pursuant to 42 CFR § 413.9(a), “All payments to providers of
services must be based on the reasonable cost of services covered under Medicare and related to
the care of beneficiaries.” Furthermore, pursuant to 42 CFR § 413.9(c), “It is the intent of
Medicare that payments to providers of services should be fair to the providers, to the
contributors to the Medicare trust funds, and to other patients.”

The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 4, section 61.4.3, states:

       CMS will consider the relatively few brachytherapy sources that were ordered but
       not implanted due to specific clinical considerations to be ... billable to Medicare
       under the following circumstances. The hospital may charge for all sources if
       they were specifically acquired by the hospital for the particular patient according
       to a physician’s prescription for the sources ... in order to ensure that the clinically
       appropriate number of sources was available for the implantation procedure, and
       they were not implanted in any other patient. Those sources that were not
       implanted must have been disposed of in accordance with all appropriate
       requirements for their handling. In general, the number of sources used in the
       care of the patient but not implanted would not be expected to constitute more
       than a small fraction of the sources actually implanted in the patient.




                                                  4
Nuclear Regulatory Commission Requirements

The U.S. Nuclear Regulatory Commission (NRC) regulates uses of nuclear materials, such as in
nuclear medicine. NRC provides assistance to States expressing interest in establishing
programs to assume NRC regulatory authority. Section 274 of the Atomic Energy Act of 1954,
as amended, provides a statutory basis under which NRC relinquishes to the States portions of its
regulatory authority to license and regulate byproduct material, source material, and certain
quantities of special nuclear materials. The mechanism for the transfer of NRC’s authority to a
State is an agreement signed by the Governor of the State and the Chairman of the Commission,
in accordance with section 274b of the Atomic Energy Act of 1954, amended. Florida signed
such an agreement with NRC. In Florida, the Department of Health, Bureau of Radiation
Control, is responsible for maintaining the NRC requirements under its agreement with NRC.

Florida Administrative Code

Pursuant to the Florida Administrative Code (F.A.C.) § 64E-5.633(1) and (2), a licensee must
maintain accountability at all times of brachytherapy sources in storage or use and must record
the following for brachytherapy use: the number and activity of sources removed from storage,
the room number of use and patient’s name, the time and date the sources were removed from
storage, the number and activity of sources in storage after the removal, and the name of the
individual who removed the sources from storage; and the number and activity of sources
returned to storage, the room number of use and patient’s name, the time and date the sources
were returned to storage, the number and activity of sources in storage after the return, and the
name of the individual who returned the sources to storage.

Pursuant to F.A.C. §§ 64E-5.624 (2)(a) through (g), when brachytherapy sources are held for
decay in storage, a licensee must retain a record of each disposal for 3 years. The record must
include the date of the disposal, the date the radioactive material was placed in storage, the
radionuclides disposed, the model and serial number of the radiation survey instrument used, the
background dose rate, the radiation dose rate measured at the surface of each waste container,
and the name of the individual who performed the disposal.

MEDICARE OVERPAYMENTS

Overpayments Resulting From Billing for Multiple Patients Treated From a Single Vial

Sirtex package inserts state that each vial of radioactive SIR-Spheres is manufactured as one
therapeutic treatment and meant for use by a single patient. 5 For 43 claims, Lakewood billed
Medicare for an entire vial of SIR-Spheres (including sources that were not implanted), used the
remaining sources that had not been implanted to treat a different patient, and billed the other
patient’s insurance (i.e., Medicare or private insurance) for an entire vial. Federal law defines
reasonable costs as costs actually incurred. Lakewood incurred costs for one vial, used one vial
to treat two patients, and billed for two vials (i.e., one vial for each patient). Lakewood is not

5
 Sirtex’s package insert states that the vials are for single-patient use. See
http://www.sirtex.com/files/US20Package20Insert1.pdf.


                                                            5
entitled to Medicare reimbursement for costs that it did not incur. Because Lakewood received
payments based on costs that exceeded the costs actually incurred, the 43 claims resulted in
$483,137 in identified Medicare overpayments to Lakewood.

In 22 of these 43 claims, Lakewood treated 2 Medicare patients from the same vial of
SIR-Spheres, billed Medicare twice for the entire contents of each vial, and received 2 Medicare
payments for each vial. These 22 claims resulted in 11 Medicare overpayments to Lakewood
totaling $237,127.

For the remaining 21 claims, 1 patient was covered by Medicare and the other patient was
covered by private insurance. These 21 improper claims resulted in an overpayment of
$246,010.

Lack of Accountability for the Use of SIR-Spheres

For 19 claims, Lakewood billed for sources not implanted; however, Lakewood did not meet the
Medicare billing requirements for unused sources. 6 According to Federal requirements, unused
sources that are not disposed of in accordance with all appropriate requirements are not billable
to Medicare. Pursuant to F.A.C. § 64E-5.633, Lakewood must maintain accountability at all
times for all brachytherapy sources in storage or use, including a record of the number and
activity of sources returned to storage, and maintain its records for 3 years.

Pursuant to F.A.C. § 64E-5.624(2), all sources placed in storage for decay must be documented
to ensure proper disposal. The records must be kept for 3 years and must indicate the date of the
disposal, the date the radioactive material was placed into storage, the radionuclides disposed,
the model and serial number of the radiation survey instrument used, the background dose rate,
the radiation dose rate measured at the surface of each waste container, and the name of the
individual who performed the disposal. Lakewood provided us with logs of wipe/leak tests that
it conducted to determine the amount of radiation outside the sources’ containers. However,
Lakewood did not provide a record documenting when it placed the SIR-Spheres into storage for
decay or when it disposed of the vials.

Furthermore, to be billable under Medicare, sources not implanted in the Medicare beneficiary
must have been specifically acquired by the hospital for that particular patient. However, at
Lakewood, the purchase orders and invoices did not always match, and some invoices did not
contain an identifier for the specific patient who was to receive the treatment or the date the
treatment was to be administered. In cases in which patient identifiers and treatment dates did
not match, Lakewood could not document the specific patient for whom the SIR-Spheres were
ordered. Without this information, Lakewood could not have appropriately billed for any unused
sources. The lack of accountability for the unused SIR-Spheres in these 19 claims resulted in
Medicare overpayments totaling $223,202.


6
 For the provider to receive payment for unused sources, the sources must be ordered for a particular patient, the
unused sources must not be implanted in any other patient, and the unused sources must have been handled and
disposed of in accordance with all appropriate requirements for their handling (CMS, Medicare Claims Processing
Manual, Pub. No. 100-04, chapter 4, section 61.4.3).

                                                         6
Billing for Canceled Procedures and Unsupported Services

For two claims, Medicare patients were scheduled for SIR-Spheres injections, but the procedures
were canceled before injection, and the medical records indicated that the procedures were never
performed. Nevertheless, Lakewood billed Medicare for both vials of SIR-Spheres that had been
ordered for the procedures. These improper claims resulted in Medicare overpayments to
Lakewood totaling $38,138.

For one claim, Lakewood billed Medicare for a vial of SIR-Spheres for a Medicare patient who,
according to medical records, not only did not receive the SIR-Spheres injection but also was
never scheduled to receive it. This improper claim resulted in a Medicare overpayment of
$17,057.

CAUSES OF MEDICARE OVERPAYMENTS

Billing for Multiple Patients Treated From a Single Vial

Lakewood did not ensure that prescriptions matched purchase orders and purchase orders
matched invoices for the patients receiving SIR-Spheres. In each of the 43 claims discussed
above, the attending physician prescribed 1 vial for each patient, but Lakewood ordered only 1
vial that was later split to treat 2 patients. When Lakewood treated the second patient, it billed a
second time for the entire vial, even though it had already been reimbursed for the entire contents
of that vial in treating the first patient.

Lakewood officials disagreed that treating multiple patients from a single vial and billing
Medicare for the entire vial for each patient is prohibited under Medicare. Consequently,
Lakewood did not have policies and procedures to accurately address the Medicare billing
requirements relating to them.

Lack of Accountability for the Use of SIR-Spheres and Canceled Procedures

Lakewood stated that it was unaware of the Medicare conditions of payment for unused
brachytherapy sources and unaware of the Florida regulatory requirements for tracking unused
radioactive sources. Lack of proper recordkeeping systems prevented Lakewood from accurately
tracking whether the unused SIR-Spheres were disposed of, implanted in another patient, or
placed into storage for decay.

Billing for Canceled Procedures and Unsupported Services

The canceled and unsupported services were improperly billed because Lakewood did not follow
the manufacturer’s procedures for ordering SIR-Spheres, and the medical records section was not
communicating with the billing department. The policies and procedures at Lakewood did not
require the billing department to examine the medical records and verify that the services had
occurred before billing.




                                                 7
TOTAL MEDICARE OVERPAYMENTS

In each of the instances above, we allowed payments proportionate to the amount of sources
actually implanted in the Medicare patients. During CYs 2008 and 2009, Medicare overpaid
Lakewood a total of $761,534 for unused SIR-Spheres for 65 brachytherapy claims.

RECOMMENDATIONS

We recommend that Lakewood:

   •   refund to the Medicare program $761,534 in overpayments for improper brachytherapy
       claims;

   •   develop and implement procedures to ensure that all brachytherapy sources are billed
       correctly; and

   •   develop and implement procedures for handling, tracking, and disposing of all
       radioactive brachytherapy sources, with special emphasis on Yttrium-90 disposal
       requirements.

LAKEWOOD COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In its comments on the draft report, Lakewood did not fully agree with our recommendations.
Because Lakewood could find no specific prohibition against billing multiple times for a single
vial of SIR-Spheres, it will continue to do so. In addition, Lakewood stated that the physical
inventory requirements in the F.A.C. governing the use and handling of Yttrium-90 and
Medicare billing requirements are not applicable to SIR-Spheres because they are not traditional
brachytherapy sources.

Lakewood’s comments, excluding personally identifiable information, are included as the
Appendix.

We maintain that our findings are valid. We summarize Lakewood’s comments and our
response to those comments in more detail below.

Recommendation 1 (Lakewood Comments)

   A. Multiple Patients Treated From a Single Vial. Lakewood stated that the Medicare
      HCPCS code C2616 for SIR-Spheres (Yttrium-90) did not specify a quantity of
      SIR-Spheres but indicated that the quantity of the isotope is “per source.” Lakewood
      further stated that it consistently charged for one unit of the code for each administration
      of SIR-Spheres, and it is not permitted to charge less than one unit for HCPCS code
      C2616.

   B. Documentation of Handling and Disposal of Brachytherapy Sources. Lakewood stated
      that SIR-Spheres differ from traditional brachytherapy seeds in several important

                                                8
       respects. Based on these differences, in some instances, compliance with the handling,
       tracking, and disposal rules applicable to traditional brachytherapy sources is "physically
       impossible." Lakewood stated that each vial of SIR-Spheres must be used the day it is
       received. The remaining SIR-Spheres are not returned to storage but are, instead, sent to
       a decay cabinet until safe for disposal. Lakewood further stated that F.A.C. §§ 64E-5.618
       and 64E-5.633 are not applicable to SIR-Spheres; instead, SIR-Spheres are more
       appropriately regulated under F.A.C. § 64E-5.624, governing decay in storage, because
       that criterion does not require inventory, initial estimate of activity, location, dates, or
       radiation safety officer signature. Lakewood stated that its decay storage is in
       compliance with F.A.C. § 64E-5.624.

   C. 	 Undelivered Brachytherapy on Two Claims. Lakewood concurs with our findings.

   D. 	 Unsupported Service. Lakewood disagrees with the finding for Sample #80, dated
        August 12,2008, in which the patient did not receive brachytherapy SIR-Spheres.
        Lakewood claimed that the Medicare payment should be allowed because it administered
        the brachytherapy SIR-Spheres on a subsequent date, August 21,2008.

Recommendation 1 (Office of Inspector General Response)

   A. 	 Multiple Patients Treated From a Single Vial. We continue to assert that these claims
       were inappropriate because each charge for HCPCS code C2616 should have covered the
       cost to treat one patient with one unit (one vial) of Yttrium-90 micro spheres (HCPCS
       C2616). Instead, Lakewood split one unit (one vial) between two patients. Lakewood
       correctly states that it "consistently charged for one unit of the code for each
       administration of SIR-Spheres ...." However, when Lakewood split a vial, administered
       that vial to two different patients, and billed Medicare (or other insurance) for two
       HCPCS C2616 units, Lakewood was paid twice for the same vial of SIR-Spheres.

   B. 	 Documentation of Handling and Disposal of Brachytherapy Sources. Lakewood cited
        F.A.C. § 64E-5.624 as the appropriate regulation governing decay in storage. This
        F.A.C. section requires the licensee to maintain disposal records to track the disposal of
        radioactive materials placed in storage for decay. Because Lakewood could not identify
        when it placed the vials into storage, it did not comply with the criteria that it cited in its
        response (F.A.C. §§ 64E-5.624 (2)(a) through (g».

   D. 	 Unsupported Service. The patient in sample #80 received insertion ofbrachytherapy
        SIR-Spheres on a later date, August 21,2008, as Lakewood claims. However, Lakewood
        also received a separate Medicare payment for the insertion ofbrachytherapy SIR­
        Spheres into the same patient on August 21, 2008. Thus the Medicare payment for the
        brachytherapy SIR-Spheres insertion procedure that never took place on August 12,
        2008, should be disallowed because the procedure was not performed.




                                                   9

Recommendation 2 (Lakewood Comments)

   A. Policies and Procedures for Billing for Multiple Patients Treated From a Single Vial.
      Lakewood stated that the reimbursement guidelines for brachytherapy had changed since
      our audit period. In the 2010 Medicare Outpatient Prospective Payment System Final
      Rule (Final Rule), CMS changed the criteria regulating reimbursement from “cost based”
      to Ambulatory Payment Classification prospective reimbursement. Lakewood stated that
      the preamble to the Final Rule does not address the split dosage issue, and the code
      descriptor for C2616 has not changed. “Therefore, under the prospective payment rate,
      ‘per source’ appears to mean ‘per vial.’” Absent regulatory or subregulatory guidance to
      the contrary, Lakewood stated that it would continue to bill for one unit of SIR-Spheres
      under HCPCS code C2616, including those circumstances in which portions of a single
      vial are administered to two patients, and its charges will reflect the cost of a single vial.

   B. Policies and Procedures for Canceled Procedures. Lakewood concurred with our
      recommendation and will strengthen its internal controls to prevent billing for canceled
      brachytherapy procedures.

Recommendation 2 (Office of Inspector General Response)

   A. Policies and Procedures for Billing for Multiple Patients Treated From a Single Vial.
      Our audit covered CYs 2008 and 2009 (before CMS revised the criteria), when SIR-
      Spheres were reimbursed based on “reasonable costs.” The issue that Lakewood brings
      up concerning the lack of Medicare’s definition of a unit is not valid. The manufacturer,
      Sirtex, states that a vial is for single-patient use. The real issue is that Lakewood’s
      practice of double billing for a single vial caused Medicare to overpay for each vial of
      SIR-Spheres that Lakewood split and administered to two patients. Because Lakewood
      overstated its costs, the Medicare payment for each patient was substantially greater than
      the cost of a single vial. Therefore, Medicare reimbursed Lakewood more than the
      reasonable costs for SIR-Spheres brachytherapy sources because it paid Lakewood twice
      for a single unit of the sources.

Recommendation 3 (Lakewood Comments)

Development and Implementation of Procedures for Handling, Tracking, and Disposing of All
Radioactive Brachytherapy Sources With Special Emphasis on Yttrium-90 Tracking and
Disposal Requirements. Lakewood disagreed with this recommendation because SIR-Spheres
are not a traditional brachytherapy source, and, therefore, it is not appropriate or physically
possible for Lakewood to apply to SIR-Spheres handling, tracking, and disposal requirements
that are applicable to traditional brachytherapy sealed sources. Lakewood stated that it is in
compliance with all applicable Florida laws regarding the handling, tracking, and disposing of
unused SIR-Spheres.




                                                10
Recommendation 3 (Office of Inspector General Response)

Development and Implementation of Procedures for Handling, Tracking, and Disposing of All
Radioactive Brachytherapy Sources With Special Emphasis on Yttrium-90 Tracking and
Disposal Requirements. As noted in OIG Recommendation 1B above, SIR-Spheres are a
radioactive brachytherapy source and, as such, are subject to NRC regulations and the F.A.C. for
decay-in-storage requirements.




                                               11
APPENDIX
                                                                                        Page 1 of 6

      APPENDIX: LAKEWOOD RANCH MEDICAL CENTER COMMENTS



                                        Lakewood Ranch
                                         Medical Center

December 1,2011



VIA FEDERAL EXPRESS AND ELECTRONIC MAIL (Andrew.funtal@oig.hhs.gov)

Mr. Andrew Funtal, Audit Manager
United States Department of Health and Human Services
Office of Inspector General
61 Forsyth Street SW, Suite 3T41
Atlanta, Georgia 30303

RE: Report Number A-04-10-06131 Review of Outpatient Brachytherapy Medicare
Payments to Lakewood Ranch Medical Center

Dear Mr. Funtal:

        This letter responds on behalf of Lakewood Ranch Medical Center ("Lakewood") to the
draft report entitled "Review of Outpatient Brachytherapy Medicare Payments to Lakewood
Ranch Medical Center" (the "Report"). During and following the review by the Office of
Inspector General ("OIG") audit team, Lakewood staff reviewed the practices of Lakewood
related to the handling, tracking, use, disposal and billing of brachytherapy sources. As detailed
below, Lakewood concurs with the OIG findings regarding brachytherapy-related catheter
insertion, the use of Iodine-125 seed, and the usc of Technetium-125m liquid sources, but
respectfully disagrees with certain of the OIG recommendations regarding the use and storage of
Yttrium-90 microspheres ("SIR Spheres"). SIR Spheres are not a traditional brachytherapy
product and the OIG recommendations related to handling and storage of SIR Spheres are
inconsistent with the necessary use and storage requirements of the SIR Spheres product and
Florida regulators' interpretation of applicable Florida law. Lakewood appreciates this
opportunity to respond to the draft OIG recommendations as set forth in the Report.

OIG Recommendation 1: The OIG recommends that Lakewood refund to the Medicare
program $761,534 in overpayments for improper brachytherapy claims, which includes:
(A) $483,137 for Lakewood's use of a single vial of SIR Spheres to treat two separate
patients on 43 claims; (B) $223,202 for lack of certain documentation showing handling
and disposal of unused brachytherapy sources on 19 claims; (C) $38,138 for undelivered
brachytherapy on two claims; and (D) $17,057 for an unsupported service on one claim.

Lakewood responds to items A - D in tum below.

A.     Multiple Patients Treated From a Single Vial. The OIG recommends that Lakewood
refund $483,137 for Lakewood's use of a single vial of SIR Spheres to treat two separate patients
on 43 claims. We disagree with this recommendation. SIR Spheres are described by HCPCS
                                                                                                             Page 2 of 6




Code C2616. The code does not specify a quantity of SIR Spheres and instead indicates that the
quantity of the isotope is "per source." In this case, the sole manufacturer of the source (i.e., SIR
Spheres) distributes the source in a single size vial. Each vile contains hundreds of thousands of
the SIR Spheres per milliliter in a liquid suspension. Since the SIR Spheres are only distributed
in a single size vile and the source material in each vile numbers in the hundreds of thousands,
one unit of HCPCS C2616 is the vile. Lakewood consistently charged for one unit of the code for
each administration of SIR Spheres and is not permitted to charge less than one unit of Hepcs
C2616.

B.     Documentation of Han<Ui.l!& and Disposal of Brachytherapy Sources. The OIG
recommends that Lakewood refund $223,202 for lack of certain documentation showing
handling and disposal of unused brachytherapy sources on 19 claims.

Lakewood respectfully disagrees with the identified overpayment amount of $223,202 associated
with 19 claims for which the OIG states Lakewood did not properly dispose of unused amounts
of SIR Spheres because Lakewood did appropriately dispose of the unused amounts of SIR
Spheres in accordance with applicable Florida law. Lakewood has been inspected by the Florida
Bureau of Radiation control several times and the Bureau has found no deficiencies in this area.
The basis for Lakewood's disagreement is explained further below.

Radiation for brachytherapy is generated by tiny pieces of radioactive material, typically in a
form called "seeds" or "pellets." Radiation oncologists use these seeds, also called the "source,"
to deliver a dose of radiation to a tumor or the surgical cavity left after a tumor has been
removed. Brachytherapy seeds may be permanently left in the body, or placed temporarily for
short periods of time. A brachytherapy seed may be the size of a dried rice grain or a bit of lead
from a mechanical pencil.

SIR Spheres differ from traditional brachytherapy seeds in several important respects:
(1) Yttrium-90 micro spheres are suspended in liquid form and are microscopic as opposed to
seeds which are readily quantifiable; (2) Yttrium-90 microspheres have a radioactive shelf-life of
64 hours whereas traditional seeds require storage, tracking and proper disposal because seeds
remain radioactive for a longer period of time; (3) the dosage of Yttrium-90 microspheres to
patients is in measured liquid form as opposed to one traditional seed. See Exhibit A to this
letter for a side-by-side comparison of the procurement and handling of brachytherapy seeds as
opposed to Yttrium-90 microspheres.

Traditional brachytherapy seeds are encapsulated in a shell and are therefore labeled a "sealed
source." Florida regulation 64E-5.101(133) defines "sealed source" as "radioactive material that
is permanently bonded or fixed in a capsule or matrix designed to prevent release and dispersal
of the radioactive material under the most severe conditions which are likely to be encountered
in normal use and handling."! This contrasts greatly to a SIR Sphere, which is held in a liquid
medium as a suspension. The individual SIR Spheres contained in each vial of liquid contain the
Yttrium-90 radioactive material. The SIR Spheres are virtually invisible to the naked eye and

1 F.A.C. 64E-5.101(133) as defined above was effective 12/18/2001-2/27/2008. Effective 2128/2008, F.A.C. 64E­
5.101(133) was revise to define "sealed source" as "radioactive material that is encased in a capsule designed to
prevent release or escape ofthe radioactive material" and state that the definition was "substantially similar" to the
previous definition. Effective 2111/2010, F.A.C. 64E-5.101(133) was renumbered as F.A.C. 64E-5.101(129).
                                                                                         Page 3 of 6




 hundreds of thousands or more of SIR Spheres exist in a milliliter of liquid. Therefore, although
 SIR Spheres are technically brachytherapy sources, they are suspended in liquid and are not a
 sealed source as are most brachytherapy sources.

Though there are many regulatory requirements governing the use of sealed brachytherapy
sources, the liquid suspension style of SIR Spheres creates instances where compliance with the
handling, tracking and disposal rules applicable to traditional brachytherapy sources is physically
impossible. For example, the requirements ofF.A.C. 64E-5.618 and 64EE-5.633, which regulate
storage of brachytherapy sources, are not applicable to SIR Spheres because SIR Spheres are not
returned to inventory storage following administration. Because the half-life of SIR Spheres is
approximately 64 hours, the doses are never in storage for futme use. Each ordered vial of SIR
Spheres must be used on the same day it is received. For this reason, they are not returned to
storage but sent to a decay cabinet to decay until safe for disposal. Therefore, SIR Spheres are
more appropriately regulated under F.A.C. 64E-5.624, governing decay in storage. Unlike the
requirements for returning radioactive materials to storage under F.A.C. 64E-5.618, there are no
requirements regarding inventory, or initial estimate of activity, location, dates, nor radiation
safety officer signature under the F.A.C. 64E-5.624. Lakewood' s decay storage is therefore in
compliance with F.A.C. 64E-5.624.

C.     Undelivered Brachytherapy on Two Claims. The OrG recommends that Lakewood
refund to the Medicare program $38,138 for undelivered brachytherapy on two claims (Sample
#1 and Sample #102). Lakewood concurs with this recommendation and will make payment to
Highmark Medicare Services within 30 days of the issuance of the Final OIG Report.

D.      Unsupported Service. The OrG recommends that Lakewood refund to the Medicare
program $17,057 for an unsupported service on one claim to the patient in Sample # 80.
Lakewood respectfully disagrees with the identified overpayment amount. The OIa mistakenly
determined that Lakewood provided Phase I of the brachytherapy procedure to the patient, but
billed for Phase II of the procedure. As documented in the August 2008 medical record entries
attached as Exhibit B to this letter, Lakewood provided Phase I of the procedure to the patient on
August 12,2008 and Phase II of the procedure to the patient on August 21,2008. Under Phase I,
the adequacy of the vasculature for reception of the Sir Spheres is evaluated. The Sir Spheres are
administered on a subsequent date as Phase II.

OlG Recommendation 2: The OIG recommends that Lakewood develop and implement
procedures to ensure that all brachytherapy sources are billed correctly.

A.     Policies and Procedures for Billing for Multiple Patients Treated From a Single Vial.

Since the audit period dates in 2008 and 2009, the reimbursement methodology for
brachytherapy has changed. The 2010 Medicare Outpatient Prospective Payment System Final
Rule (the "Final Rule") published in the Federal Register on November 20, 2009, changed the
reimbursement methodology from "cost based" reimbursement to APC prospective
reimbursement for brachytherapy sources, effective January 1,2010. (See 74 F.R. 60316, 60532­
60537) The preamble to the Final Rule does not address the split dosage issue related to SIR
Spheres. SIR Spheres remain under HCPCS C26 16 and the code descriptor did not change. The
units for C2616 remain described as "per source," with an APC rate that approximates the costs
                                                                                           Page 4 of 6




 associated with one vial of SIR Spheres. Therefore, under the prospective payment rate, "per
 source" appears to mean "per vial." As discussed above in response to Recommendation l.A, it
 is not possible to bill for less than one unit of C2616 when less than a full vial of SIR Spheres is
 administered to a patient. Absent regulatory or sub-regulatory guidance to the contrary, when a
 partial vial of SIR Spheres is administered to a patient, Lakewood will bill for one unit of C2616,
 including in those circumstances where portions of a single vial are administered to two patients
 and its charges will reflect the cost of a single vial.

 Lakewood will assure that it (1) only accounts for the costs of one vial of SIR Spheres on its
 Medicare cost report when it uses one vial for treatments provided to two Medicare patients, (2)
 allocates the cost of a single vial of SIR Spheres proportionately between payors when a single
 vial is used for treatments provided to a Medicare and a private insurance patient and (3) will
 include the entire cost of one vial on the cost report in the event that Lakewood does not have a
 second patient to use the remaining SIR Spheres within the shelf life of the SIR Spheres.

 B.     Policies and ,rrocedures for Cancelled Procedures

 Lakewood will strengthen its internal controls for verification of medical records to prevent
 billing for cancelled brachytherapy procedures.

 OIG Recommendation 3: Development and implementation of procedures for handling,
 tracking and disposing of all radioactive brachytherapy sources with special emphasis on
 Yttrium-90 tracking and inventory requirements.

Lakewood respectfully disagrees with OIG Recommendation 3. As discussed above in response
to Recommendation 1, the SIR Spheres product is not a traditional brachytherapy source and,
therefore, it is not appropriate, or physically possible, for Lakewood to apply the handling,
tracking and disposal that are applicable to traditional brachytherapy sealed sources to SIR
Spheres. Lakewood is in compliance with all applicable Florida laws regarding the handling,
tracking and disposal of unused SIR Spheres.

                                                *   **
We thank you for the opportunity to respond to the draft OIG recommendations. Please do not
hesitate to contact me if you have any questions regarding our responses.

Sincerely,


~~
~fExecutive Officer
                                                                                                   Page 5 of 6




                                   Exhibit A 

  Comparison of Procurement and Handling of Traditional Bracbytherapy Seeds and 

                    Yttrium-90 Microspberes ("SIR Spheres")

           Action                        SIR Spheres                        Traditional Brachytherapy
                                                                                         Seeds
Ordering                  Candidacy is determined by pre-screening iCandidacy is determined by
                          !arteriogram, liver scan and lab testing.     [Urologist. Dose is ordered by
                          !After candidacy is determined dose is        ~ eating Oncologist directly from
                                                                        ~endor, 21 Century Oncology.
                                                                                     51
                          [ordered by Radiology personnel.
Dose                      IDose is delivered in a pre calibrated        Seeds are delivered to the Nuclear
                          ~tandard dose vial. Spheres are held in a     ~ot Lab. Assay and wipe test is
                           iquid suspension naked to the invisible      performed. Seeds are individual
                          ~ye. Therefore, they can not be counted enca psulated doses and are
                           ndividuaUv. Assay and wipe test is          !Counted individually. After
                          performed in the Nuclear Hot Lab.             assay and wipe test is performed,
                          Spheres are held in the Hot Lab until        !the seeds are picked up and
                          prepared and delivered to the                Itransported to the OR suite by the
                           nterventionallCath Lab by the Nuclear        Oncology RN.
                          Technologist.
).;ocation of Procedure   Delivery of SIR Spheres is performed in Delivery of the Brachytherapy
                           be InterventionallCath Lab suite. The       seeds is performed in the OR
                          patient is admitted for observation          .suite. The patient is discharged
                          ~vernight.                                    home after recovery.
Method of Delivery to     ~IR Spheres are delivered via intra arterial Seeds are loaded into thin, hollow
Patient                   ~atheter directly into the designated vessel ~eedles and injected directly into
                           dentified by Interventional Radiologist. ~e prostate. This is performed
                          This is performed with the patient under         ·th the patient under general
                          moderate sedation.                           :anesthesia.
Disposal                  Due to the short half life of 64 hours, the iThe half life of the seed is
                          dose is calibrated for day of                ~pproximately 17-59 days
                          administration. Any remaining dose           ~epending on source of Radiation.
                          cannot be reused and is placed in the        ~nused seeds can be reused. All
                          Nuclear Hot Lab for decay.                   ~mused seeds are returned from the
                                                                       P R and placed in the Nuclear Hot
                                                                       Lab for pick up by the Nuclear
                                                                       Pharmacy (21 st Century).
IrreatmentiTarget Area    SIR Spheres are used to treat liver cancer. 'Seeds are used to treat prostate
                                                                         ,ancer.
1'reatment Phases          rhere are 2 phases of treatment for SIR ,Prostate seed therapy is single
                           phere therapy.                              visit.
                                                                          Page 6 of 6




                         Exhibit B
       Medical Record Documentation Supporting Claim


                       Please see attached.



Not included for report purposes as Exhibit contains personally identifiable
information (PH) not meant for public consumption.
